HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents To Contribute Toward the Medical Costs of Title
IV-D Children in Virginia Under the State Childrens Health Insurance Program,"(A-03-02-00203)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents To Contribute Toward the
Medical Costs of Title IV-D Children in Virginia Under the State Childrens Health Insurance Program," (A-03-02-00203)
July 22, 2004
Complete
Text of Report is available in PDF format (611 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report points out that Virginia has an opportunity to increase enrollment in the State Childrens Health Insurance
Program (SCHIP) and have noncustodial parents pay a portion of the associated costs.  Based on a statistical sample,
we estimated that 14,804 Title IV-D children would have been eligible to receive SCHIP benefits during the period June
1, 2001 through May 31, 2002.  The noncustodial parents of 9,929 of these additional children could potentially contribute
$5.2 million toward the $7.3 million in premiums that would have been incurred if the children had been enrolled.  For
those children already enrolled, we determined that 1,116 received SCHIP managed care benefits and 446 of these children
had noncustodial parents who could potentially contribute $193,453 toward the $303,041 in SCHIP premiums paid on behalf
of their children.  We recommended that Virginia use the Title IV-D agency as an enrollment tool for SCHIP, and broaden
its authority to require noncustodial parents with medical support orders to pay all or part of the SCHIP premiums for
their dependent children.